U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rolando Villarreal v. United States of America,
S.Ct. No. 20-7790

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 13,
2021, and placed on the docket on April 16, 2021. The government’s response is due on May
17, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7790
VILLARREAL, ROLANDO
USA

MICHAEL LANCE HERMAN
FEDERAL PUBLIC DEFENDERS OFFICE
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002
713-718-4600
MICHAEL_HERMAN@FD.ORG

